                                   Report Template Version = 01-13-05




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     MEDICARE BENEFICIARY 

     TELEPHONE CUSTOMER 

           SERVICE





                    Daniel R. Levinson

                     Inspector General 


                      August 2005

                     OEI-07-04-00030

                                                                Report Template Version = 01-13-05




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
                                                                    Report Template Version = 01-13-05




Δ   E X E C U T I V E                   S U M M A R Y                   



                  OBJECTIVE
                  To assess callers’ experiences with Medicare-funded call centers and to
                  determine priorities for and efforts to ensure quality customer service.


                  BACKGROUND
                  The Centers for Medicare & Medicaid Services (CMS) serves the
                  informational needs of approximately 40 million Medicare beneficiaries
                  and/or their representatives by using multiple communication sources.
                  The most heavily used communication sources are the Medicare-funded
                  call centers. At the time of our fieldwork, beneficiaries could call either
                  a fee-for-service contractor call center or 1-800-MEDICARE with
                  questions about Medicare. There were 29.3 million calls to
                  Medicare-funded call centers in fiscal year 2004.

                  We administered a survey to 305 callers over a 1-week period to assess
                  their experiences with Medicare telephone customer service. We asked
                  callers if they were satisfied with the customer service they received, if
                  they believed their questions were answered, and if they received all the
                  information they needed. We also asked callers about their priorities
                  for customer service. We administered a survey to the managers of all
                  the call centers to determine the call center managers’ priorities for
                  quality customer service and to identify any quality improvement efforts
                  planned or underway. Finally, we reviewed CMS’s oversight activities
                  related to call centers, including accompanying CMS staff on a
                  performance evaluation of a large fee-for-service call center.


                  FINDINGS
                  Eighty-four percent of callers asked to rate satisfaction were
                  satisfied overall with the customer service they received; however,
                  44 percent of all callers reported difficulty accessing information
                  from call centers. The 44 percent of callers who had difficulty
                  accessing information reported at least one of the following experiences:
                  (1) finding the Interactive Voice Response not easy to use, (2) not
                  receiving an answer to their question or all the information they
                  needed, or (3) not receiving the answer to their question as quickly as
                  desired.




OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                    i
                                                                     Report Template Version = 01-13-05




E X E C U T I V E              S U     M M A R Y


                   Callers and call center managers both placed a high priority on
                   accuracy of answers, yet evidence suggests oversight of accuracy
                   may be inadequate. Sixty-seven percent of all callers and 71 percent of
                   call center managers ranked accuracy as their highest priority.
                   Although we did not test accuracy of answers specifically, we believe it
                   is important to note that 24 percent of callers reported not receiving an
                   answer to their question or all the information they needed. Both of
                   these experiences are related to accuracy. Findings in two Government
                   Accountability Office (GAO) reviews of Medicare-funded call centers
                   raised concerns that oversight of accuracy may be inadequate. A
                   July 2004 GAO report found that the performance evaluation criteria
                   “. . . are not designed to verify that [customer service representatives’]
                   responses to providers are accurate.” A December 2004 GAO report
                   found that “CMS and its contractors do not emphasize [customer service
                   representatives’] ability to answer questions accurately using [CMS
                   approved guidance].” While limited, our fieldwork supported GAO’s
                   findings. The CMS performance evaluation we observed focused on
                   validation of reported performance results (e.g., number of monitored
                   calls, number of calls answered in less than 60 seconds, average speed of
                   answer) and documented training activities. However, the review team
                   spent little time assessing the accuracy of answers given to callers.

                   Some call centers conducted quality assurance activities that focused on
                   accuracy, exceeding CMS requirements. These activities included
                   increasing the number of monitored calls in the Quality Call Monitoring
                   process, tying monitored performance to customer service
                   representative evaluations, involving representatives in the
                   administration of quality assurance activities, and administering
                   periodic knowledge tests.


                   RECOMMENDATIONS
                   We recommend that CMS:

                   o 	 Strengthen current oversight to place greater emphasis on
                       completeness of responses, greater efficiency for the caller, and
                       accuracy of answers given by customer service representatives.
                       CMS could achieve this by: (1) including CMS staff with expertise
                       in call handling on national review teams for performance
                       evaluations, (2) requiring call centers to conduct periodic
                       knowledge testing with minimum passing scores, and/or
                       (3) increasing the number of calls monitored in the Quality Call


 OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                   ii
                                                                     Report Template Version = 01-13-05




E X E C U T I V E              S U     M M A R Y


                       Monitoring process. Given that some call centers are currently
                       engaged in conducting periodic knowledge testing and increased
                       monitoring, CMS may want to determine the impact these
                       practices may have on quality outcomes.
                   o 	 Continue to seek ways to improve the national Interactive Voice
                       Response system. We note that subsequent to our fieldwork, CMS
                       moved the option to speak with a customer service representative
                       to the main menu, thereby decreasing the amount of time it
                       required to arrive at this option from approximately 2 minutes to
                       50 seconds.




                   AGENCY COMMENTS
                   In its comments to the draft report, CMS expressed appreciation for
                   the Office of Inspector General’s analysis and recommendations to
                   help improve the benficiary inquiry call centers. CMS stated it will
                   continue with quality assurance activities, some of which we
                   suggested in our recommendations, already underway at the
                   1-800-MEDICARE call center. CMS described these activities in
                   detail. However, CMS does not plan to invest significant resources
                   into reengineering quality assurance activities at the fee-for-service
                   call centers because this workload will be integrated into the
                   1-800-MEDICARE operation. In addition, CMS stated that an expert
                   in the field of interactive voice response is being consulted to assist
                   with improving and enhancing the system. For CMS’s complete
                   comments, see page 17 of this report.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We appreciate CMS’s comments to this report and note that CMS is
                   taking action to address issues raised in this report. Changes were
                   made to the report to reflect technical comments received from CMS.




 OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  iii
                                                                                   Report Template Version = 01-13-05




Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY ........................................                                                               i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 8

                    Positive overall caller satisfaction . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                    Difficulty accessing information . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                    Priorities and quality assurance activities. . . . . . . . . . . . . . . . . . . 12 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                    A: 	Confidence Intervals for Key Estimates and Chi-Square

                        Tests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    B: Profile of Surveyed Callers . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                                                                           Report Template Version = 01-13-05




Δ   I N T R O D U C T I O N                             



                  OBJECTIVE
                  To assess callers’ experiences with Medicare-funded call centers and to
                  determine priorities for and efforts to ensure quality customer service.


                  BACKGROUND
                  Beneficiary Telephone Inquiries
                  The Centers for Medicare & Medicaid Services (CMS) serves the
                  informational needs of approximately 40 million Medicare beneficiaries
                  and/or their representatives by using multiple communication sources.
                  The most heavily used communication sources are the Medicare-funded
                  call centers. At the time of our fieldwork, beneficiaries could call either
                  a fee-for-service contractor call center or 1-800-MEDICARE (which is
                  also a CMS contractor) with questions about Medicare. Fee-for-service
                  contractors (carriers, fiscal intermediaries, and durable medical
                  equipment regional carriers) operated 63 separate call centers.1 In
                  fiscal year (FY) 2004, the fee-for-service call centers handled
                  approximately 12.8 million calls at a cost of $96.3 million, while
                  1-800-MEDICARE handled 16.5 million calls at a cost of $104.2 million.

                  Since Medicare’s inception in 1965, Medicare contractors have operated
                  the telephone customer service system as a group of stand-alone call
                  centers. The Balanced Budget Act of 1997 required a toll-free number
                  for inquiries regarding the newly created Medicare+Choice program. In
                  1998, CMS established 1-800-MEDICARE for this purpose. In 1999, the
                  phone number was phased in as part of the National Medicare
                  Education Program and offered general information about Medicare,
                  health plan options, supplemental insurance, and referral telephone
                  numbers for help with claims or more complex issues. The original
                  purpose of 1-800-MEDICARE, a source of information about
                  Medicare+Choice options, broadened as new initiatives began.
                  Section 923(d) of the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA) officially established 1-800
                  MEDICARE as the primary source of general Medicare information and
                  assistance. In July 2004, 1-800-MEDICARE became the single point of
                  entry for the telephone customer service system, with transfer
                  capabilities to the various fee-for-service call centers.



                  1 CMS provided a listing of 63 fee-for-service call centers dated April 2, 2004.




OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                          1
                                                                          Report Template Version = 01-13-05




I N T R O D        U C T      I O N


                    CMS Goals for Customer Service Satisfaction
                    According to the CMS Web site, CMS’s customer service mission is to
                    continuously improve Medicare beneficiary customer satisfaction
                    through the delivery of high quality and cost effective customer service.

                    CMS’s FY 2004 Government Performance and Results Act Annual
                    Performance Plan indicated that the performance goal for telephone
                    customer service was to improve beneficiary telephone customer service
                    in terms of accessibility, accuracy of response, and caller satisfaction.
                    During FYs 2000-2002, CMS developed baselines and collected data
                    related to this performance goal. However, in the plan narrative
                    discussing the performance results, CMS indicated that in
                    FYs 2003-2004, it redirected efforts and resources away from the
                    performance goal of improving beneficiary telephone customer service in
                    terms of accessibility, accuracy of response, and caller satisfaction
                    (including funding for a national caller satisfaction survey), instead
                    focusing on creating a single point of entry (1-800-MEDICARE). Thus,
                    no current national baseline for beneficiary satisfaction exists.

                    In FY 2004, only 3 of the 63 fee-for-service call centers conducted
                    beneficiary satisfaction surveys, which were part of a performance
                    incentive pilot program. At the time of our fieldwork, CMS required its
                    1-800-MEDICARE contractor to conduct 400 beneficiary satisfaction
                    surveys per month.
                    CMS Requirements for Call Centers
                    The Medicare Contractor Beneficiary and Provider Communications
                    Manual outlines the guidelines for telephone customer service,
                    including: hours of operation, bilingual services, services for people
                    with hearing impairments, and requirements related to Interactive
                    Voice Response (IVR).2,3 Certain performance metrics must be met in
                    terms of how quickly calls are answered, how quickly callers who choose
                    to speak with a customer service representative actually speak with a
                    representative, how often callers’ questions are answered on the initial
                    call, and how often callers receive a busy signal.




                    2 An IVR is a software application in which someone uses a touch-tone telephone to interact

                     with a database to acquire information. An IVR provides prerecorded voice responses
                     based on voice or keypad input.
                    3 Medicare Contractor Beneficiary and Provider Communications Manual, Chapter 2,
                     section 20.1.



 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                           2
                                                                       Report Template Version = 01-13-05




I N T R O D        U C T      I O N


                    CMS requires all contractors to use Quality Call Monitoring (QCM) to
                    monitor, measure, and report the quality of service they provide.4 The
                    QCM is the primary method CMS uses to assess whether call centers
                    are meeting established performance standards.

                    The QCM process requires a quality auditor to monitor a minimum of
                    three calls per customer service representative per month at
                    fee-for-service call centers, and four calls per representative per month
                    at 1-800-MEDICARE. The quality auditor uses a scorecard to rate the
                    representative in areas such as adherence to the Privacy Act, customer
                    skills (e.g., greeting, tone, volume), and knowledge skills (e.g., accuracy,
                    completeness, call action). The following performance standards must
                    be met for the calls monitored each month through the QCM:
                    o 	 The percentage of customer service representatives scoring as
                        “Pass” for adherence to the Privacy Act should be no less than
                        90 percent.
                    o 	 The percentage of customer service representatives scoring as
                        “Achieves Expectation” or higher for customer skills should be no
                        less than 90 percent.
                    o 	 The percentage of customer service representatives scoring as
                        “Achieves Expectation” or higher for knowledge skills should be no
                        less than 90 percent.

                    The results of the scorecards are used for coaching the representatives.
                    Scorecard results are aggregated and reported to CMS on a monthly
                    basis.
                    CMS Evaluation of Call Centers
                    CMS validates the reported scorecard data during a fee-for-service
                    contractor’s performance evaluation. According to the FY 2004 review
                    protocol, the purpose of the performance evaluation is to determine
                    whether the contractor is: (1) answering calls from Medicare
                    beneficiaries in an efficient, accurate, and professional manner that
                    meets established performance standards; (2) reporting performance
                    data accurately to CMS; and (3) following established guidelines for
                    training and coaching customer service representatives to properly
                    respond to telephone inquiries. Based on FYs 2001-2003 contractor
                    performance evaluation reports and the schedule of FY 2004 planned


                    4 Medicare Contractor Beneficiary and Provider Communications Manual, Chapter 2,
                     section 20.1.7.


 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                    3
                                                                      Report Template Version = 01-13-05




I N T R O D        U C T      I O N


                    evaluations that CMS provided to us, we determined that CMS
                    conducted 31 performance evaluations in FYs 2001-2004 at
                    23 fee-for-service call centers.

                    CMS employs different evaluation methods for 1-800-MEDICARE.
                    Every 4 months, the 1-800-MEDICARE contractor provides a narrative
                    self-evaluation that CMS uses to conduct an assessment of:
                    (1) performance and progress achieved in various functional areas
                    (e.g., call center operations, information technology, response to
                    requests for publications); (2) a comparison of actual performance to the
                    standard for various performance metrics; and (3) a rating for contract
                    compliance. In addition, a quality assurance contractor monitors the
                    operation of the IVR and calls answered by customer service
                    representatives on a monthly basis.
                    Other Studies
                    In a February 2002 study for which CMS contracted with a private
                    consultant, beneficiaries who had contacted any one of the eight largest
                    Medicare contractors with a billing question that was transferred to
                    their respective fraud units were surveyed. Seventy-five percent of
                    beneficiaries reported being satisfied with their overall experience. In a
                    February 2002 report regarding provider inquiries entitled
                    “Communications with Physicians can be Improved,” (GAO-02-249), the
                    Government Accountability Office (GAO) found that the customer
                    service representatives they tested provided complete and accurate
                    answers to their questions 15 percent of the time. In a July 2004
                    followup report entitled “Call Centers Need to Improve Responses to
                    Policy-Oriented Questions from Providers,” (GAO-04-669), GAO found
                    that only 4 percent of answers given were complete and accurate.
                    Section 923 of the MMA mandated GAO to conduct a study of the
                    accuracy and consistency of information provided through
                    1-800-MEDICARE. This study, “Accuracy of Responses from the
                    1-800-MEDICARE Help Line Should Be Improved,” was released in
                    December 2004 (GAO-05-130). GAO reviewers called
                    1-800-MEDICARE and posed test questions to the representatives
                    regarding the Medicare program. GAO found that the representatives
                    provided accurate answers 61 percent of the time.




 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                   4
                                                                         Report Template Version = 01-13-05




I N T R O D        U C T      I O N 





                    METHODOLOGY
                    We used three methods to gather information for this inspection:
                    (1) telephone surveys with callers to fee-for-service or
                    1-800-MEDICARE call centers, (2) a review of CMS oversight activities,
                    and (3) interviews with call center managers.
                    Telephone Surveys
                    We divided the call centers into three groups: large call centers, small
                    call centers, and 1-800-MEDICARE. Large and small designations were
                    determined by calculating the mean FY 2003 call volume per
                    fee-for-service call center (223,609 calls). Fee-for-service call centers
                    with FY 2003 call volumes below the mean were designated as small,
                    and call centers with FY 2003 call volumes above the mean were
                    designated as large. The FY 2003 call volume range for small call
                    centers was 4,531 to 223,396 calls and the FY 2003 call volume range
                    for large call centers was 241,066 to 1,118,851 calls. We obtained a
                    telephone network generated listing of all calls made to small and large
                    call centers and 1-800-MEDICARE call centers during the week of
                    April 12-16, 2004.5 The listing included the following information: call
                    center telephone number dialed, originating telephone number, and
                    date and time of call. We spoke with CMS officials to ensure that the
                    selected week was typical of weeks throughout the year.

                    For each of 5 days (Monday through Friday), we eliminated duplicate
                    originating telephone numbers (some callers called more than once in a
                    given day) and randomly selected 75 callers. For each day, these callers
                    were divided into 3 groups: 25 who called small call centers, 25 who
                    called large call centers, and 25 who called 1-800-MEDICARE
                    (75 x 5 days = 375 randomly selected callers) for a total of 15 strata. As
                    illustrated in Table 1 on the next page, we completed 305 telephone
                    surveys from the sample of 375 callers, for an 81 percent response rate.

                    Ninety-seven percent of our surveys were completed within 2 business
                    days of the caller’s sampled call to the call centers. The other 3 percent
                    were completed within 5 business days. We administered our survey to
                    determine callers’ experiences, such as whether callers believed their
                    questions were answered, whether callers received all the information
                    they needed, and how they rated their experience based on selected

                    5 Small and large call centers operate Monday through Friday during typical business
                     hours; 1-800-MEDICARE operates 7 days a week, 24 hours per day.



 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                        5
                                                                              Report Template Version = 01-13-05




I N T R O D           U C T      I O N


                       QCM performance standards. We did not ask 34 callers all survey
                       questions because they ended their calls when they were unable to
                       receive a response to their question from a customer service
                       representative or IVR (e.g., called after business hours); therefore,
                       271 callers were asked to rate their experiences related to the responses
                       they received from the call center.


  Table 1: Population, Sampled Calls, and Completed Surveys by Strata

      Day of Week      Type of Call Center       Population      Sampled Calls       Completed Surveys

                         Small Call Centers           15,309                  25                       22

           Monday        Large Call Centers           47,450                  25                       19

                         1-800-MEDICARE               32,716                  25                       20

                         Small Call Centers           12,544                  25                       22

           Tuesday       Large Call Centers           40,277                  25                       22

                         1-800-MEDICARE               29,262                  25                       21

                         Small Call Centers           11,550                  25                       20

       Wednesday         Large Call Centers           35,963                  25                       22

                         1-800-MEDICARE               27,811                  25                       19

                         Small Call Centers           11,113                  25                       15

          Thursday       Large Call Centers           36,487                  25                       22

                         1-800-MEDICARE               29,852                  25                       21

                         Small Call Centers           10,769                  25                       21

             Friday      Large Call Centers           35,131                  25                       20

                         1-800-MEDICARE               31,029                  25                       19

                                      Total          407,263                 375                      305

                             Source: Office of Inspector General analysis of telephone network data, 2004.



                       All 305 callers were asked questions about their priorities for customer
                       service and their experiences during their calls. We performed
                       comparisons with regard to overall customer service satisfaction,
                       finding the IVR easy to use, receiving an answer to the caller’s question
                       and all of the information needed, and receiving an answer to the
                       caller’s question as quickly as desired. We analyzed results with respect


 OEI-07-04-00030       MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                        6
                                                                          Report Template Version = 01-13-05




I N T R O D        U C T      I O N


                    to the three groups: callers to small call centers, callers to large call
                    centers, and callers to 1-800-MEDICARE. Findings are projected to the
                    week of April 12-16, 2004.

                    We did not administer test questions to customer service
                    representatives to directly test the accuracy of answers given to callers.
                    However, we did ask callers if they received an answer to their question
                    and whether they received all of the information they needed. We chose
                    not to directly test accuracy due to the December 2004 GAO report
                    addressing this issue. To gain firsthand experience with the
                    1-800-MEDICARE IVR, we called it on five separate occasions in
                    August 2004.
                    Review of CMS Oversight Activities
                    We obtained the date and results of all call center performance
                    evaluations conducted in FY 2001, FY 2002, and FY 2003, as well as
                    improvement plans, action steps, progress, and followup of the results.
                    We accompanied CMS staff on a performance evaluation of a large call
                    center in June 2004. We observed the sampling methods, review
                    procedures, and protocols used in conducting the performance
                    evaluation.
                    Structured Interviews with Call Center Managers
                    We conducted a total of 55 telephone interviews with managers from all
                    of the small and large call centers and 1-800-MEDICARE call centers to
                    determine the call center managers’ priorities for quality customer
                    service and to identify any quality improvement efforts planned or
                    underway.6 We asked for results data and opinions regarding these
                    efforts.
                    Standards
                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on
                    Integrity and Efficiency.




                    6 Some large fee-for-service contractors operated multiple call centers. We combined some

                     interviews, meaning that the total number of interviews conducted is less than the total
                     number of call centers.



 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                             7
                                                                           Report Template Version = 01-13-05




Δ   F I N D I N G S 


                                                       Of the 305 callers with whom we
Eighty-four percent of callers asked to rate           spoke, 271 received responses to
satisfaction were satisfied overall with the           their questions from customer
           customer service they received              service representatives or IVRs.
                                                       Eighty-four percent of these callers,
                  when projected to the universe of callers during the week of our
                  fieldwork, reported that they were satisfied overall with the customer
                  service they received. (See Appendix A for confidence intervals for all
                  point estimates and results of chi-square tests.) The remaining
                  34 callers hung up before receiving a response to their question(s), citing
                  reasons such as hold times too long or calling after business hours, and
                  thus were not asked to rate satisfaction. Table 2 below shows reported
                  overall satisfaction by group.7


                       Table 2: Caller Satisfaction with Customer Service

                                                          Percentage of Callers Reporting

                          Type of Call Center
                                                     Satisfied    Unsatisfied     Neutral or Unsure


                              Small Call Centers          77%              15%                   8%

                             Large Call Centers           91%                4%                  5%

                              1-800-MEDICARE              78%              19%                   3%

                          Source: Office of Inspector General analysis of caller surveys, 2004.


                  We asked callers about a variety of experiences, such as: use of the IVR;
                  the need to call multiple times; receipt of an answer and all the
                  information they needed; actions taken as a result of the call; receipt of
                  an answer quickly or being placed on hold; the courtesy of the customer
                  service representative; and overall satisfaction with the customer
                  service received. We found that overall satisfaction was associated with
                  three experiences:8


                  7 Caller satisfaction varied by call center group. A chi-square test provides a p-value of

                   0.008, significant at the 95 percent confidence level. However, using the Bonferroni
                   method for testing each of the three pair-wise comparisons, a p-value of 0.0167 or less is
                   necessary to have a significant difference at the 95 percent confidence level. The
                   comparison between small and large call centers was significant (p-value of 0.008).
                   However, the comparison between 1-800-MEDICARE and large call centers was not
                   significant (p-value of 0.0169).
                  8 Correlations are statistically significant at the 95 percent confidence level.




OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                               8
                                                                                Report Template Version = 01-13-05




F 	I N D I N G           S


                        o 	 finding the IVR easy to use,

                        o 	 receiving an answer to their question and all of the information
                             they needed, and
                        o 	 receiving an answer to their question as quickly as desired.



                                                                Forty-four percent of all callers
                   However, 44 percent of all callers
                                                                during our week of fieldwork had
                       reported difficulty accessing
                                                                difficulty accessing information,
                      information from call centers             reporting at least one of the
                        following experiences: (1) finding the IVR not easy to use, (2) not
                        receiving an answer to their question or all the information they
                        needed, or (3) not receiving an answer to their question as quickly as
                        desired. A profile of callers and their experiences can be found in
                        Appendix B.
                        Thirty-two percent of callers encountering an IVR system reported that it
                        was not easy to use
                        At the time of our fieldwork, small and large call centers had the option
                        of providing an IVR. According to the CMS contractor manual, “IVRs
                        are intended to assist beneficiaries in obtaining information on general
                        Medicare program questions, publication requests, and appeal rights.”9
                        Of the small and large call centers, 42 of the 63 used an IVR, in addition
                        to 1-800-MEDICARE. We asked callers who interacted with an IVR
                        during our week of fieldwork if the recording that answered their call
                        was easy to use. Thirty-two percent of these callers reported that the
                        recording was not easy to use. Respondent experiences are shown in
                        Table 3 on the next page.10




                        9 The Medicare Contractor Beneficiary and Provider Communications Manual contained

                         this statement concerning IVRs at the time of our review. We note that the manual was
                         revised effective June 3, 2005.
                        10 Differences between groups are not statistically significant at the 95 percent confidence
                          level (p-value = 0.111).



 OEI-07-04-00030        MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                                9
                                                                               Report Template Version = 01-13-05




F   I N D I N G        S      





                              Table 3: Caller Experience with IVR

                                                                Percentage of Callers Reporting
                                  Type of Call Center
                                                           IVR easy to use      IVR not easy to use

                                     Small Call Centers                 71%                       29%

                                     Large Call Centers                 74%                       26%

                                      1-800-MEDICARE                    60%                       40%

                                  Source: Office of Inspector General analysis of caller surveys, 2004.



                      In addition to asking whether the IVR was easy to use, we captured
                      callers’ comments about the IVR. Forty-two percent of the sampled
                      callers interacting with an IVR expressed a negative opinion of the IVR.
                      These callers’ comments included complaints that the message was too
                      long or contained too many choices, or that the menus were not
                      applicable to their questions. Callers also expressed feelings of
                      frustration, irritation, confusion, or lack of understanding. One caller to
                      a small call center stated that she was “. . . very unhappy with the IVR.
                      It makes you want to cry.” Thirteen percent of sampled callers
                      expressed the desire to speak with a live person rather than a recording.
                      One caller to 1-800-MEDICARE stated, “People are always waiting to
                      see what to punch if you want to talk to a person. Why don’t they make
                      ‘talk to a live person’ the first option?”

                      As shown in Table 3, 40 percent of callers to 1-800-MEDICARE found
                      the IVR not easy to use. In July 2004, 1-800-MEDICARE became the
                      sole point of entry for all callers, meaning that the 1-800-MEDICARE
                      IVR initially answers all calls.

                      To gain firsthand experience with the 1-800-MEDICARE IVR, we called
                      it on five separate occasions in August 2004. We found that, to arrive at
                      an option to speak with a customer service representative, we had to
                      respond to a variety of questions about the nature of the inquiry before
                      we were given the option to select “agent” in order to speak with a
                      representative. Answering these questions took approximately
                      2 minutes. Subsequent to our fieldwork, we called the
                      1-800-MEDICARE IVR and found that the option to speak with a
                      representative had been placed in the main menu and took
                      approximately 50 seconds to reach.



    OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                         10
                                                                              Report Template Version = 01-13-05




F   I N D I N G        S


                      Twenty-four percent of callers reported not receiving an answer to their
                      question or all the information they needed
                      We asked callers who received responses whether they received an
                      answer to their question and whether they received all the information
                      they needed. During our week of fieldwork, 24 percent of callers
                      provided a negative response to one or both of these questions.

                      We asked these callers to explain their answer to the questions above.
                      Some callers expressed that the customer service representative could
                      not answer their question or gave an explanation that left them
                      confused. Others reported that they received no information or received
                      incomplete information. One caller said, “I don’t know any more now
                      than before I called.” Another caller remarked, “I am still confused. I
                      get a different answer each time I call.” Respondent experiences are
                      shown in Table 4 below.11

                               Table 4: Caller Experience with Receiving Answers and
                               Complete Information

                                                                 Percentage of Callers Reporting

                                  Type of Call Center      Received BOTH an           Did not receive an
                                                             answer AND all          answer AND/OR all
                                                           information needed        information needed

                                     Small Call Centers                     69%                       31%

                                     Large Call Centers                     81%                       19%

                                     1-800-MEDICARE                         70%                       30%

                                      Source: Office of Inspector General analysis of caller surveys, 2004.


                      Twelve percent of callers reported not receiving the answer to their question
                      as quickly as they desired
                      Our review of CMS’s performance metrics requirements indicated an
                      emphasis on addressing caller questions and issues quickly. We asked
                      callers whether they received an answer to their question as quickly as
                      they desired. During our week of fieldwork, 12 percent of callers
                      reported they did not. Respondent experiences are shown in Table 5 on
                      the next page.12


                      11 Differences between groups are not statistically significant at the 95 percent confidence
                        level (p-value = 0.11).
                      12 Differences between groups are statistically significant at the 95 percent confidence level

                        (p-value = 0.018). All rows do not equal 100 percent due to rounding.



    OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                             11
                                                                            Report Template Version = 01-13-05




F   I N D I N G        S 





                         Table 5: Caller Experience with Receiving an Answer to Their
                         Question as Quickly as Desired

                                                        Percentage of Callers Reporting Receiving an
                                                                 Answer to their Question
                             Type of Call Center
                                                       As quickly as     Not as quickly
                                                                                                Unsure
                                                         desired          as desired

                                 Small Call Centers               77%                21%                 2%

                                 Large Call Centers               88%                  7%                4%
                                 1-800-MEDICARE                   80%                16%                 4%
                                         Source: Office of Inspector General analysis of caller surveys, 2004.



                      We also captured comments from callers regarding multiple transfers
                      and multiple calls to different telephone numbers. Nine percent of all
                      sampled callers shared experiences such as referrals to other sources
                      (e.g., telephone numbers) that did not resolve their issue or could not
                      answer their question. As one caller stated, “Who to call is a secret. It
                      was a round robin to get to the right telephone number.” During the
                      week of our fieldwork, sampled callers made an average of 2.43 calls to
                      call centers, ranging from 1 to 8.



                                                             In addition to asking callers about
           Callers and call center managers both
                                                             their experiences during their call
            placed a high priority on accuracy of
                                                             to a Medicare-funded call center,
                 answers, yet evidence suggests              we also asked them about their
        oversight of accuracy may be inadequate              priorities for customer service.
                      We identified three priority areas for telephone customer service based
                      upon our review of the QCM process and discussions with CMS officials:
                      (1) accuracy, (2) courtesy, and (3) amount of time caller spends on the
                      telephone. While we recognize that all of these elements are important
                      to the customer service experience, we asked both callers and call center
                      managers to rank the three elements in order of importance.

                      Overall, 67 percent of all callers during our week of fieldwork ranked
                      accuracy as the highest priority. Forty-nine percent of all callers
                      ranked their priorities as accuracy, courtesy, and time spent on the
                      telephone, while 18 percent of all callers ranked their priorities as
                      accuracy, time spent on the telephone, and courtesy. We believe it is

    OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                            12
                                                                            Report Template Version = 01-13-05




F   I N D I N G        S


                      important to note that 24 percent of callers reported not receiving an
                      answer to their question or all the information they needed. Both of
                      these experiences are related to accuracy.

                      Of the call center managers who ranked their customer service
                      priorities,13 71 percent (37/52) ranked their priorities as accuracy,
                      courtesy, and time spent on the telephone. The only other combination
                      of priorities for call center managers, as reported by 29 percent (15/52),
                      was courtesy, accuracy, and time spent on the telephone.
                      Oversight of accuracy may be inadequate
                      We accompanied a CMS review team on a performance evaluation in
                      June 2004 and observed that the evaluation focused on validation of
                      reported performance results (e.g., number of monitored calls, number
                      of calls answered in less than 60 seconds, average speed of answer) and
                      documented training activities. However, the review team spent little
                      time assessing the accuracy of answers given to callers.

                      The review protocol requires reviewers to observe and listen to eight
                      calls that the call center is monitoring as part of its QCM process. In
                      practice, the review team observed, but did not evaluate the accuracy of
                      four calls being scored. We inquired of the review team why they only
                      observed the calls without evaluating the accuracy of the answers. A
                      CMS review team member told us that evaluating the accuracy of the
                      calls was not feasible since the review teams do not always include staff
                      with the necessary expertise.

                      Our fieldwork supported GAO’s findings from a July 2004 GAO report14
                      which found that the CMS performance evaluation criteria “are not
                      designed to verify that [customer service representatives’] responses to
                      providers are accurate.” In addition, a December 2004 GAO report15
                      found that “CMS and its contractors do not emphasize [customer service
                      representatives’] ability to answer questions accurately using [CMS
                      approved guidance].”




                      13 One call center manager refused to rank priorities, and two call center managers

                        indicated that both accuracy and courtesy were the top priority, followed by the amount
                        of time spent on the telephone.
                      14 GAO-02-249 “Communications with Physicians Can Be Improved,” which can be accessed
                        at http://www.gao.gov/new.items/d02249.pdf.
                      15 GAO-04-669 “Call Centers Need to Improve Responses to Policy-Oriented Questions from
                        Providers,” which can be accessed at http://www.gao.gov/new.items/d04669.pdf.



    OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                         13
                                                                        Report Template Version = 01-13-05




F   I N D I N G 
S


                      Some call centers conducted quality assurance activities that exceeded
                      CMS requirements, including activities that focused on accuracy
                      Thirteen call center managers indicated that they had enhanced their
                      QCM process by: (1) evaluating more than three calls per month per
                      customer service representative; (2) tying QCM results to performance
                      evaluations and raises; (3) having representatives evaluate recorded
                      calls; and/or (4) having representatives participate in calibrations,
                      which are meetings held across call centers to ensure all quality
                      auditors score calls consistently.

                      Thirteen other call center managers reported administering periodic
                      knowledge tests to customer service representatives. Some call centers
                      administered graded written tests completed by the representative.
                      Other call centers had supervisors pose as callers and ask a question.
                      The supervisor then assessed the accuracy and courtesy of the
                      representative’s response.

                      Four call center managers reported that they conduct both enhanced
                      QCM and knowledge testing. These four call centers were all large call
                      centers. The sampled callers to these call centers experienced higher
                      percentages of receiving an answer to their question and all the
                      information they needed when compared to all other call centers.
                      Sampled callers to these call centers also reported higher satisfaction
                      with the customer service they received compared to all other call
                      centers. However, the callers to these four call centers comprised a
                      small subset of sampled calls; the results are not statistically
                      significant, yet suggest the potential that these efforts may improve
                      accuracy and satisfaction.

                      When we asked call center managers about QCM in general, call center
                      managers reported some positive aspects of the process, including: clear
                      expectations for both quality auditors and customer service
                      representatives, random selection of calls for monitoring, and
                      identification of training needs for the representatives and the entire
                      call center based on errors found in monitoring. In fact, 27 percent of
                      call center managers (15/55) supported more frequent call monitoring,
                      believing the minimum number of calls per month required by CMS for
                      each representative did not give an adequate assessment of a
                      representative’s performance.




    OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  14
                                                                            Report Template Version = 01-13-05




F   I N D I N G        S
Δ       R E C O M M E N D A T I O N S                                   





                      Medicare telephone customer service is an important source of
                      information regarding Medicare benefits for beneficiaries and their
                      representatives. Their informational needs will undoubtedly increase
                      as the significant program changes contained in the MMA are
                      implemented. Furthermore, section 921 of the MMA specifically calls
                      for prompt responses to inquiries from Medicare contractors, and for
                      contractors to monitor the accuracy, consistency, and timeliness of the
                      information they provide. Although our inspection found that
                      84 percent of callers asked to rate satisfaction reported they were
                      satisfied overall with the customer service received, 44 percent of callers
                      reported difficulty accessing information from call centers. The
                      response completeness and IVRs contributed to the reported difficulties.
                      We recommend that CMS:
                      o 	 Strengthen current oversight to place greater emphasis on
                           completeness of responses, greater efficiency for the caller, and
                           accuracy of answers given by customer service representatives.
                           CMS could achieve this by: including CMS staff with expertise in
                           call handling on national review teams for performance
                           evaluations, requiring call centers to conduct periodic knowledge
                           testing with minimum passing scores, and/or increasing the
                           number of calls monitored in the QCM process. Given that some
                           call centers are currently engaged in conducting periodic
                           knowledge testing and increased monitoring, CMS may want to
                           determine the impact these practices may have on quality
                           outcomes.
                      o 	 Continue to seek ways to improve the national IVR system. We
                           note that subsequent to our fieldwork, CMS moved the option to
                           speak with a customer service representative to the main menu,
                           thereby decreasing the amount of time it required to arrive at this
                           option from approximately 2 minutes to 50 seconds.


                      AGENCY COMMENTS
                      In its comments to the draft report, CMS expressed appreciation for the
                      Office of Inspector General’s analysis and recommendations to help
                      improve the benficiary inquiry call centers. CMS stated it will continue
                      with quality assurance activities, some of which we suggested in our
                      recommendations, already underway at the 1-800-MEDICARE call

    OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                      15
                                                                        Report Template Version = 01-13-05




R   E C O        M M E N D A T           I O N      S


                      center. CMS described these activities in detail. However, CMS does
                      not plan to invest significant resources into reengineering quality
                      assurance activities at the fee-for-service call centers because this
                      workload will be integrated into the 1-800-MEDICARE operation. In
                      addition, CMS stated that an expert in the field of IVR is being
                      consulted to assist with improving and enhancing the system. For
                      CMS’s complete comments, see page 17 of this report.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We appreciate CMS’s comments to this report and note that CMS is
                      taking action to address issues raised in this report. We acknowledge
                      that CMS revised its Medicare Contractor Beneficiary and Provider
                      Communications Manual in June 2005. Changes were made to the
                      report to reflect technical comments received from CMS.




    OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  16
                                                                        Report Template Version = 01-13-05




Δ   A G E N C Y              C O M M E N T S                        





OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                      17
                                                                      Report Template Version = 01-13-05




A G   E N     C Y     C O     M M E N T           S 





 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  18
                                                                      Report Template Version = 01-13-05




A G   E N     C Y     C O     M M E N T           S 





 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  19
                                                                      Report Template Version = 01-13-05




A G   E N     C Y     C O     M M E N T           S 





 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  20
                                                                      Report Template Version = 01-13-05




A G   E N     C Y     C O     M M E N T           S 





 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  21
                                                                      Report Template Version = 01-13-05




A G   E N     C Y     C O     M M E N T           S 





 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  22
                                                                      Report Template Version = 01-13-05




A G   E N     C Y     C O     M M E N T           S 





 OEI-07-04-00030    MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  23
                                                                                   Report Template Version = 01-13-05




          A    P   P E N D       I X ~    A
     Δ             A P P E N D I X                 ~       A



              Confidence Intervals for Key Estimates and Chi-Square Tests
Caller Experiences

                                                                                              Weighted Chi-Square Test

Finding
                                                                                            Degrees of
                                                                                                               P-value
                                                                                            Freedom

Relationship between finding the interactive voice response easy to use and
satisfaction

                                           Percent Satisfied         Percent Unsatisfied*

Interactive voice response easy to
                                                        89.14                      10.86
              use/Don't remember                                                                           1            0.012

    Interactive voice response not
                                                        72.99                      27.01
                        easy to use

Relationship between receiving an answer to a question and all information
needed, and satisfaction

                                           Percent Satisfied         Percent Unsatisfied*
                                                                                                                  less than
                      Received answer                       95                          5                  1
                                                                                                                     0.001
               Did not receive answer                   51.91                      48.09

Relationship between receiving an answer to a question as quickly as desired and
satisfaction

                                           Percent Satisfied         Percent Unsatisfied*
                                                                                                                  less than
              Received answer quickly                   92.06                       7.94                   1
                                                                                                                     0.001
   Did not receive answer quickly                       30.77                      69.23
*Includes sampled callers who reported that they were unsure or neither satisfied nor unsatisfied, in addition to
sampled callers who reported that they were unsatisfied.




               OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                   24
                                                                             Report Template Version = 01-13-05




   A   P   P E N D       I X ~      A


Caller Experiences


                                                                                               Confidence
Finding                                                               Point Estimate           Interval
                                                                                               95 Percent



Callers asked to rate satisfaction who were satisfied overall with
                                                                                       84.5%      80.1% - 88.9%
the customer service received

Callers who reported difficulty accessing information from call
                                                                                       43.7%      37.7% - 49.6%
centers

Callers encountering an interactive voice response who
                                                                                       31.6%      25.9% - 37.4%
reported that it was not easy to use

Callers to 1-800-MEDICARE who reported that the interactive
                                                                                       39.7%      30.1% - 49.4%
voice response was not easy to use

Callers who reported not receiving an answer to their question
                                                                                       24.4%      18.9% - 29.9%
or all the information that they needed

Callers who reported not receiving an answer as quickly as they
                                                                                       12.4%       8.3% - 16.4%
desired


Customer Service Priorities


                                                                                               Confidence
Finding                                                              Point Estimate            Interval
                                                                                               95 Percent



Callers who ranked priorities as: 1) accuracy, 2) courtesy, and
                                                                                       48.7%     42.5% - 54.9%
3) time spent on the telephone

Callers who ranked priorities as: 1) accuracy, 2) time spent on
                                                                                       18.1%     13.4% - 22.8%
the telephone, and 3) courtesy




       OEI-07-04-00030     MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  25
                                                                                          Report Template Version = 01-13-05




Δ         A P P E N D I X                            ~      B

    Profile of Surveyed Callers

                                                            Small Call       Large Call         1-800
                                                                                                                 Total
                                                             Centers          Centers         MEDICARE

                                           Who called?
                                            Beneficiary*             69              70                  81       220/305
                          Beneficiary’s family member                27              32                  15        74/305
         Other (e.g., provider or insurance office staff)                4            3                   4        11/305
                                     Why did they call?
                           Medical bill/summary notice               56              56                  19       131/305
                                       Benefit question              19              25                  48        92/305
         Other (e.g., address change, multiple issues)               25              24                  33        82/305
      How did they know what phone number to call?
                         Printed on a notice I received              51              61                  36       148/305
                        Someone gave me the number                   14              21                   8        43/305
                            Medicare & You handbook                      5            5                  19        29/305
                                   Previous knowledge                    3            8                   2        13/305
                     1-800-MEDICARE advertisement                        3            0                   6          9/305
          Other (e.g., Medicare card, telephone book)                24              10                  29        63/305
   Did they try to get their question answered through
                       any other source before calling?
                            No other source consulted                72              78                  70       220/305
                      Medicare handbook or brochure                      3            0                   2          5/305
                                    Internet Web site**                  1            1                   1          3/305
                     Friend, family member, counselor                    1            0                   1          2/305
    Other (e.g., call to provider, secondary insurance)              23              26                  26        75/305
 How many times did they call a Medicare-funded call
                            center during the week?
                                                     1-3             79              88                  83       250/305
                                                     4-8             21              17                  17        55/305
                              Average number of calls              2.52            2.34                2.44           2.43
     How did callers describe CSR***/recording pace,
                                volume, and clarity?
                CSR/recording spoke at the right pace                85              93                  77       255/271

             CSR/recording spoke at the right volume                 84              93                  82       259/271

                          CSR/recording spoke clearly                88              95                  80       263/271
         How did callers rate their experience with the
                           customer service received?
                                               Satisfied             70              88                  64       222/271
                                             Unsatisfied             14               4                  16        34/271
                                     Neither or Unsure                   8            4                   3        15/271
*These totals include four callers who called on behalf of themselves and for family members. Two of these callers were in the

large call center groups, and two callers were in the 1-800-MEDICARE group. 

**One caller in the 1-800-MEDICARE group asked a friend, family member, or counselor in addition to accessing an Internet 

Web site. 

***Customer service representative (CSR).


      OEI-07-04-00030          MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                               26
                                                                    Report Template Version = 01-13-05




Δ   A C K N O W L E D G M E N T S                                   




                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina C. Maree, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Tricia Fields, Team Leader
                  Steven Milas, Program Analyst

                  Linda Paddock, Program Analyst

                  Elander Phillips, Program Analyst

                  Perry Seaton, Program Analyst

                  Deborah Walden, Program Analyst

                  Tricia Davis, Director, Medicare & Medicaid Branch

                  Technical Assistance

                  Robert Gibbons, Program Analyst




OEI-07-04-00030   MEDICARE BENEFICIARY TELEPHONE CUSTOMER SERVICE                                  27
